Ti

@OCKLE

2311 Douglas Street : E-Mail Address:
Guinha: Nabe 63100-1214 Legal Briefs contact @oehletgatrief.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-820

JOHN MCMAHON, in His Official
Capacity as Sheriff of San Bernardino County, and
RONALD SINDELAR, in His Official Capacity
as Deputy Sheriff for San Bernardino County,
Petitioners,

v.
CHEMEHUEVI INDIAN TRIBE, on Its Own Behalf
and on Behalf of Its Members Parens Patriae, and
CHELSEA LYNN BUNIM, TOMMIE ROBERT OCHOA,
JASMINE SANSOUCIE, and NAOMI LOPEZ, Individually,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 30th day of January, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION TO PETITIONERS’ WRIT OF
CERTIORARI in the above entitled case. All parties required to be served have been served by Priority Mail. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
LESTER J. MARSTON
Counsel of Record
RAPPORT AND MARSTON
405 West Perkins Street
Ukiah, CA 95482
(707) 462-6846
Marston] @Pacbell.Net

Counsel for Respondents

Subscribed and sworn to before me this 30th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ee 3 6 Clie Qdiav-h, Ghle

My Commission Expires Nov 24, 2020
Notary Public Affiant

 

 

39408
SERVICE LIST

Timothy T. Coates

Counsel of Record
Greines, Martin, Stein & Richland LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, CA 90036
(310) 859-7811
tcoates@gmsr.com

Counsel for Petitioners
